           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
   COMMONWEATH OF PUERTO RICO,
     DEPARTMENT OF THE FAMILY
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 1998

    January 2002   A-77-02-00006




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                -.t-\. SECV
                                                              :>(j~.::,
                                                              W/ts~~

                                                              \~IIIIIII!,.~
                                                                   ~IS~~

                                          SOCIAL                    SECURITY

                                          Office   of   the       Inspector       General
MEMORANDUM

Date;       JAN   2 9   2002
                                                                                                   Refer To

To'
        Dan Sweeney
        Acting Director
        Management Analysis        and Audit Program                Support      Staff

From:
        Assistant Inspector     General
         for Audit

Subject:Single Audit of the Commonwealth of Puerto Rico, Department                            of the Family for the
        Fiscal Year Ended June 30, 1998 (A-77-02-00006)

        This report presents the Social Security Administration's (SSA) portion of the single
        audit of the Commonwealth     of Puerto Rico, Department of the Family (DOF) for the
        Fiscal Year ended June 30, 1998. Deloitte & Touche, Certified Public Accountants
        (CPA) performed the audit and its reports on compliance and internal controls are
        attached (see Appendix A). Results of the desk review conducted by the Department of
        Health and Human Services (HHS) have not been received. We will notify you when
        the results are received if HHS determines the audit did not meet Federal requirements.

        The Puerto Rico Disability Determination  Services (DDS) performs disability
        determinations  under SSA's Disability Insurance (Dl) and Supplemental  Security
        Income (SSI) programs in accordance with Federal regulations.    The DDS is reimbursed
        for 100 percent of allowable costs. The Puerto Rico DOF is the Puerto Rico DDS'
        parent agency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. 88A's Dl and
        881 programs are identified by CFDA number 96. 88A is responsible for resolving
        single audit findings reported under this CFDA number.

        The single audit reported     the following      findings             (see Appendix   B)

              Documentation    to support expenditures was not available to test the base used for
              indirect costs. The corrective action plan indicates that DOF disagrees with the
              finding and that documentation   was available but not requested by the auditors.

        .     A reconciliation of physical inventory results with the accounting records was not
              performed, and accurate records for acquisitions and dispositions of property
              acquired with SSA funds were not maintained.         The corrective action plan indicates
              that DOF corrected the equipment inventory listing and is working to improve the
              process and the documentation      of its inventory.
Page 2 - Dan Sweeney


·   DDS expenditures of $170,768 were not supported by documentation. The
    corrective action plan indicates that DOF disagrees with the finding and states that
    documentation was provided for all disbursements requested by the auditors.

We recommend that SSA:

1. Ensure that the DDS has a system in place to retain accounting records and
   supporting documentation for the time period required by applicable requirements
   and regulations.

2. Verify that the DDS has procedures in place to reconcile inventory results with
   accounting records and to maintain accurate records for acquisition and disposition
   of property purchased with SSA funds.

3. Determine whether the $170,768 in undocumented expenditures was allowable and
   recover any portion which is not allowable.

The single audit also disclosed the following findings that may impact DDS operations,
although they were not specifically identified to SSA. Some of these findings were
reported for several DOF programs indicating pervasive problems within DOF. If the
finding was reported in more than one DOF program, we identify the number of times
the finding was reported in parenthesis at the end of each finding. I am bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency (see Appendix C).

·   Financial statements were not prepared in conformity with Generally Accepted
    Accounting Principles due to a lack of policies, procedures, and financial reporting
    practices. Therefore, management did not have accurate and complete financial
    information on a timely basis to carry out other duties.

·   Procedures were not in place to ensure financial reports are completed and
    submitted timely (2).

·   Supporting documentation and accounting records were not retained for
    expenditures charged to Federal funds (18).

·   DOF did not verify if parties were debarred or suspended when contracting for
    services or procuring goods with Federal funds (2).

·   A system was not in place to prepare and implement corrective action plans and
    clear audit findings in a timely fashion.

·   DOF did not follow required bidding procedures for procurement and contracting
    activities (5).

·   Property and equipment management procedures were not adequate (2).
Page 3 -Dan       Sweeney



    Transactions were not reviewed to ensure that payments agree with invoice
    amounts.

    DOF expended Federal funds for costs that benefited other programs (6).

    Periodic reviews of cash management transactions for compliance with the Cash
    Management Improvement Act (CMIA) agreement were not conducted.

.   The Financial Status Report did not agree with the general ledger (2).

    DOF did not calculate and report interest liabilities that may be owed to the Federal
    government.

    Fiscal evaluations were not performed to ensure funds were expended for allowable
    activities.

.   DOF expended Federal funds for unallowable costs (4 ).

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.



                                          s~~~


Attachments
Appendix A
Page 1 of 9
Appendix A
Page 2 of 9
Appendix A
Page 3 of 9
Appendix A
Page 4 of 9
Appendix A
Page 5 of 9
Appendix A
Page 6 of 9
Appendix A
Page 7 of 9
Appendix A
Page 8 of 9
Appendix A
Page 9 of 9
Appendix B
Page 1 of 8
Appendix B
Page 2 of 8
Appendix B
Page 3 of 8
Appendix B
Page 4 of 8
Appendix B
Page 5 of 8
Appendix B
Page 6 of 8
Appendix B
Page 7 of 8
Appendix B
Page 8 of 8
Appendix C
Page 1 of 22
Appendix C
Page 2 of 22
Appendix C
Page 3 of 22
Appendix C
Page 4 of 22
Appendix C
Page 5 of 22
Appendix C
Page 6 of 22
Appendix C
Page 7 of 22
Appendix C
Page 8 of 22
Appendix C
 Page 9 of 22
Appendix C
Page 10 of 22
Appendix C
Page 11 of 22
Appendix C
Page 12 of 22
Appendix C
Page 13 of 22
Appendix C
Page 14 of 22
Appendix C
Page 15 of 22
Appendix C
Page 16 of 22
Appendix C
Page 17 of 22
Appendix C
Page 18 of 22
Appendix C
Page 19 of 22
Appendix C
Page 20 of 22
Appendix C
Page 21 of 22
Appendix C
Page 22 of 22
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                 Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                                Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
